Evaluation of Time and Attendance Practices, Report No. OIG-AMR-29-00-01
Evaluation of Time and Attendance Practices Report No. OIG-AMR-29-00-01
Inspector
General Letter
Background
Objectives,
Scope, and Methodology
Findings and
Recommendations
Delegation of
Authority
Recording
T&A Records
Maintaining
T&A Records
Review and
Approval of T&A Reports
Advance Sick
Leave
Reliance on
Internal Controls
Appendix
Inspector General
National Labor
Relations Board
Washington, DC 20570
February 29, 2000
I hereby submit an
Evaluation of Time and Attendance Practices, Report No. OIG-AMR-29-00-01.
This review was conducted to determine whether management controls provide
adequate assurances that time and attendance transactions are properly
authorized and approved, and associated records are complete and accurate.
We reviewed Board-side offices of the National Labor Relations Board (NLRB
or Agency) except for the Division of Judges and Office of Inspector
General.
For the past several
years, time and attendance (T&A) systems have been undergoing
significant changes due to more flexible schedules and places, increased
use of automation, and downsizing in government. Federal guidance covering
internal controls over time and attendance were revised in March 1996 to
recognize these changes. The principal changes included a greater emphasis
of the Agency's responsibility to have in place a system of internal
controls that ensures (1) proper authorization and approval of T&A
transactions and (2) maintenance of complete and accurate T&A records.
Individual Board Members,
the Executive Secretary, Solicitor, and Directors of the Office of
Representation Appeals and the Division of Information are
responsible for administering leave and attendance for their respective
staffs. For these nine Board-side offices, we found:
Employees
administering leave and attendance were not delegated those
responsibilities in writing, and inappropriate employees were often
administering leave and attendance.
No offices had
designated timekeepers and alternates in writing. In seven offices,
the timekeeper and alternate shared passwords. Also, passwords were
not changed periodically in seven offices.
Except for employees
working a compressed work schedule, techniques providing timekeepers
reasonable assurance regarding employee presence or absence to
record T&A data for Board attorneys and supervisors did not
exist.
Six offices did not
maintain work schedules indicating planned start and stop work times
and hours per day. Two additional offices maintained schedules, but
there was no evidence of supervisor approval.
Two offices did not
prepare and maintain necessary documentation for approval and use of
annual and sick leave. In the seven offices that claimed to prepare
and maintain documentation, three offices excluded the office head
from the requirement, and documentation was missing in all offices
for a significant portion of leave use transactions.
Five offices tracked
compensatory time and credit hours, which had limited use,
informally rather than in the payroll system.
No offices properly
approved T&A reports. Most significantly, T&A reports were
not approved in one office; and in six offices, timekeepers,
alternates, or another support staff member approved T&A reports
even though they were all non-supervisory personnel specifically
prohibited from approving T&A reports.
Pervasive problems
existed in the use of advance leave in all six offices included in
our sample. Advance leave was not requested in accordance with
Agency policy, not approved at the designated level, and not
supported by required documentary evidence.
The NLRB issued a policy
in December 1998 that sets forth responsibilities of employees,
timekeepers, and supervisors regarding recording, examining, and approving
T&A transactions. However, we found that the Board-side offices did
not comply with many of the policies on authorization and approval of
T&A transactions and maintenance of T&A records. The Personnel
Director, who is responsible for developing leave and attendance policies,
had not conducted regular reviews of procedures as required to discover
apparent lapses concerning the proper and accurate T&A recording and
reporting.
Recommendations addressing
these findings can be found on pages 4, 5, 7, 9, 10, and 11 of this
report. We have addressed the recommendations to the Director of Personnel
because the Board Members and office heads will need assistance in
establishing procedures within their offices, to ensure a proper level of
consistency throughout the Board-side offices, and to coordinate with
employee groups. The Director of Personnel may also decide to implement
some recommendations on an agency-wide basis if deemed necessary. After
the basic internal controls are updated, supervisors will be accountable
for complying with established policies and procedures.
Adherence to
government-wide and Agency policies does not preclude management
flexibility. Employees are still provided options for arranging their work
schedules to accommodate individual needs and desires, such as exercising,
volunteer work, or reducing leave use. Supervisors can excuse infrequent
absences from duty of less than one hour with adequate reason, approve
annual or sick leave use for family friendly purposes, and otherwise
exercise reasonable discretion in administering time and attendance.
An exit conference was
held on December 15, 1999, with the Board Members, and the Directors of
Administration and Personnel, and other staff. The Director of Personnel
submitted written comments on the draft report. She agreed with all but
one recommendation, as discussed on page 7 of this report, we have
accepted her response. The Personnel Director's comments are presented in
their entirety as an appendix to this report.
Jane E. Altenhofen
Inspector General
BACKGROUND
The National Labor
Relations Board (NLRB or Agency) administers the principal labor-relations
law of the United States, the National Labor Relations Act of 1935 (Act),
as amended. The Act is generally applied to all enterprises engaged in
interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroads and the
airline industries. NLRB authority is divided by law and delegation. The
five-member Board primarily acts as a quasi-judicial body in deciding
cases on formal records. The General Counsel, like each Member of the
Board, is appointed by the President, and is responsible for the issuance
and prosecution of formal complaints in cases leading to Board decisions.
The General Counsel has general supervision of the NLRB's nation-wide
network of offices.
Each Board Member has a
professional staff that includes a chief counsel, deputy chief counsel,
two supervisory attorneys, a staff of approximately 10 attorneys, and
three support staff to assist in processing cases. The Board-side of the
Agency also includes the Offices of Executive Secretary, Solicitor, and
Representation Appeals, the Divisions of Information and Judges, and the
Office of Inspector General. The heads of these offices report to the
Chairman. Approximately 150 Board-side employees, excluding the Division
of Judges and Office of Inspector General, were included in this
evaluation.
Employee compensation and
benefits rely on two systems that operate independently and merge data on
a bi-weekly basis. The Time and Attendance (T&A) System is maintained
by timekeepers who monitor and record time and attendance for transmission
of data to the Department of Agricultures National Finance Center (NFC)
on a bi-weekly basis. Payroll/Personnel System data, which is maintained
at NFC, is input by the Payroll/Personnel Systems Unit. Employee
compensation is generated when the bi-weekly T&A submission is married
with the information in the Payroll/Personnel System.
The five Board Members are
located on the 11th floor, with their chief counsel, deputy
chief counsel, and support staff - one of whom is the timekeeper. The
supervisory and staff attorneys are located on the 9th floor.
The Offices of Executive Secretary, Solicitor, and Representation Appeals
are wholly located on the 11th floor. The Division of
Information is wholly located on the 9th floor
The Board Members are
excluded from annual and sick leave provisions by 5 U.S.C. (2)(x).
Therefore, their time and attendance was not included in our review.
OBJECTIVES,
SCOPE, AND METHODOLOGY
This review was conducted
to determine whether management controls provide adequate assurances that
time and attendance transactions are properly authorized and approved, and
associated records are complete and accurate.
We reviewed applicable
Federal law, regulations, and guidance on time and attendance. General
policy is set forth in Title 5 of the United States Code, Subpart E,
Attendance and Leave; and the Code of Federal Regulations Section 5,
Administrative Personnel. Detailed guidance is included in the General
Accounting Office Policy and Procedures Manual for Guidance of Federal
Agencies, Title 6 - Pay, Leave, and Allowances (Title 6) dated March 22,
1996. The Office of Personnel Management (OPM) provided guidance on the
use of leave slips and meal breaks.
We reviewed Agency
guidance set forth in the NLRB Administrative Policies and Procedures
Manual (APPM) Chapter 10, Leave and Attendance, dated December 21, 1998.
We reviewed supplemental NLRB Administrative Policy Circulars (APCs) and
Administrative Bulletins (ABs), and NFC guidance. We also reviewed
provisions in union agreements.
We interviewed officials
from the Personnel Branch, Personnel Operations Section on Agency policy
and their responsibilities.
We reviewed the
timekeeping practices for each of the five Board Members' offices, Office
of Executive Secretary, Office of the Solicitor, Office of Representation
Appeals, and Division of Information. In each of these offices, we
interviewed the timekeeper and a senior management official (deputy chief
counsel or office director and Board staff supervisory attorneys) to
identify operating procedures. We compared the information obtained in
interviews to the criteria identified above and determined whether
management controls were sufficient.
From a database of
transactions for the 12 months ending August 28, 1999, we selected four
statistically valid random samples. We verified whether: T&A reports
were signed or initialed by the employee, timekeeper and supervisor and
agreed with information in the NFC database; and annual leave, sick leave,
and other leave was adequately documented. We selected a judgmental sample
to review for compliance with policy on advance sick leave.
We conducted this review
in accordance with the generally accepted Government audit standards
between June and November 1999 at NLRB Headquarters.
FINDINGS
AND RECOMMENDATIONS
DELEGATION
OF AUTHORITY
Title 6 states that agency
policy must affix accountability for recording data, which could be
performed by the individual employee, timekeeper, supervisor, or a
combination of these persons. Regardless of who records the data, the
T&A system must be able to identify the individual responsible for
recording the data. Title 6 also states that all T&A reports and
related supporting documents must be reviewed and approved by an
authorized official.
APPM states that the
individual Board Members administer leave for their respective staffs. The
Executive Secretary, Solicitor, and Division Heads are authorized to
administer leave and attendance for their respective staffs, with certain
exceptions. These officials may name alternates and re-delegate authority
to subordinate officials, and designate administrative staff as
timekeepers. Delegations and designations must be in writing and submitted
to the Payroll/Personnel Systems Unit before such action can be recognized
or accepted.
Employees administering
leave and attendance for Board-side offices were not delegated those
responsibilities in writing and, as discussed later in this report, an
inappropriate employee was often administering leave and attendance. A
re-delegation is necessary in the Board Members offices because staff
supervisors generally performed administrative duties rather than the
Board Member, and the employees were located on two floors. A
re-delegation of authority is optional in the non-Board Member offices
because one supervisor could reasonably administer leave and attendance
for 5 to 25 employees located on one floor.
No offices designated
timekeepers and alternates in writing. However, the timekeepers and
alternates were assigned duties as evidenced by being provided access
codes to the T&A system.
NFC guidance states that
passwords are to be assigned to individual timekeepers and should be
changed periodically. In seven of the nine offices, the timekeeper and
alternate shared passwords. Also passwords were not changed periodically
in seven offices.
The Agency does not
collect data that positively identifies the individual who recorded
T&A data. The T&A system is programmed to collect a two position,
agency assigned number that identifies individual timekeepers recording
T&A data, but timekeepers did not enter the data.
Recommendations
1. We recommend that the
Personnel Director identify which offices want to re-delegate authority to
subordinate supervisory employees and obtain written delegations of
authority for them, and obtain written designations of timekeepers and
alternates.
2. We recommend that the
Personnel Director coordinate changing the passwords for all timekeepers
and alternates, and remind timekeepers and alternates of the need to
safeguard their passwords.
3. We recommend that the
Personnel Director instruct timekeepers and alternates to enter the two
position number that identifies the individual timekeepers recording
T&A data.
RECORDING T&A
RECORDS
Title 6 states that
timekeepers and supervisors must be aware of the work time or absence of
employees for whom they are responsible to ensure the reliability of
T&A data. The basis for recording the data could be (1) observation,
(2) timekeeping devices, or (3) other applicable techniques. Title 6
further states that the person recording the T&A data acknowledges
responsibility for the accuracy of the recorded data.
In Board Member offices,
neither the timekeeper nor the person signing as supervisor were located
in the same general area as the employees, so observation could not be
used as a basis for recording T&A data. Employees working a compressed
work schedule were required to sign in and out each day. For employees not
working a compressed schedule, the offices did not use time keeping
devices or other techniques as compensating management controls that were
sufficient to provide reasonable assurances regarding employee presence or
absence. For example, in one Board member's office, the Deputy Chief
Counsel had regular contact with the immediate supervisors and was
generally informed of employee absences. The contacts were not directly
tied to approval of the T&A reports which would be necessary for this
approach to be a sufficient technique.
Timekeepers could gain
reasonable assurances regarding the presence or absence of employees if
T&A reports and leave authorizations are signed by immediate
supervisors who are responsible for knowing their employees' whereabouts
and productivity.
Recommendation
4. We recommend that the
Personnel Director assist the Board Members in developing techniques that
provide reasonable assurances that supervisors and timekeepers are aware
of employee attendance. If observation is chosen as the applicable
technique, timekeepers and supervisors should be provided guidance on what
is required.
MAINTAINING
T&A RECORDS
Title 6 states that
documents supporting T&A records should be completed and maintained.
Examples of such documents include those for establishing (1) work
schedules, (2) flexiplace arrangements, (3) leave, (4) overtime, (5)
compensatory time, and (6) credit hours.
We found flexiplace
arrangements were documented, with minor exceptions. No offices used
overtime. We identified deficiencies with the documentation for work
schedules, leave, compensatory time, and credit hours.
Work Schedules
Title 6 states that
documentation of work schedules should be maintained. The records must
show employees' pay period schedules indicating planned start and stop
work times and hours per day for established work schedules, and approval
by the supervisor.
Six of nine offices in our
review did not maintain work schedules. Two of these six offices began
maintaining work schedules after we interviewed responsible officials. One
of these two had memoranda on file for employees who worked other than the
regular hours, but much of the information was also developed after our
audit began. Two offices maintained schedules, although there was no
evidence of supervisor approval. One office had all employees work the
official agency hours, so a schedule was not required.
Documented work schedules
are necessary for supervisors and timekeepers to monitor employee time and
attendance. This is particularly important with the developments in
flexi-time policies that allow employees to adjust their work schedules to
accommodate individual needs and desires, such as exercising, volunteer
work, or reducing leave use.
Establishing work
schedules is a critical step in supervisors being able to fulfill their
responsibilities. For example, Agency policy allows supervisors to excuse
infrequent absences from duty of less than one hour with adequate reason.
However, according to OPM guidance, Agencies are not allowed to routinely
permit employees to work less than an 80-hours in a pay period, and hour
long meal breaks, half of which is in a pay status are not authorized. A
supervisor must know an employee's work schedule in order to know if an
absence is in pay status and decide whether to authorize the absence.
Leave Slips
The NFC Payroll/Personnel
Manual states that a Standard Form 71 (SF-71) should be completed and
signed by the employee and supervisor to authorize paid leave usage.
Further, Federal personnel regulations require that each agency maintain
records on employees who take leave under the Family and Medical Leave Act
of 1993.
OPM revised the SF-71,
Leave Request, in December 1997 to enable agencies to gather such
information, and distributed the revised form in January 1998 (CPM 98-1).
NLRB AB 99-06, dated November 27, 1998, SF-71, Request for Leave or
Approved Absence, informed Agency personnel of the revised form.
Offices did not
consistently use the SF-71 to document leave usage, and some offices still
used the previous version of the SF-71. Two offices did not prepare and
maintain SF-71s to document approval and use of annual and sick leave; one
of these offices used calendars, e-mails, and vacation schedules to
monitor leave use. Leave slips were not consistently
used in the seven offices that claimed to prepare and maintain SF-71s.
Three offices did
not properly prepare and maintain SF-71s to document approval and
use of annual and sick leave for the office head. In two offices,
leave was recorded on a SF-71; in the other office, leave was
recorded on form NLRB-2151, Transmittal Slip. Neither form
documented approval by a supervisor.
Of 78 annual leave
usage transactions tested, SF-71s were not maintained for 12
transactions, and one SF-71 was not signed by the supervisor.
Of 78 sick leave
usage transactions tested, SF-71s were not maintained for 11
transactions, and one SF-71 was not signed by the supervisor.
Compensatory Time
and Credit Hours
Title 6 states that
records must show the aggregate hours (or fraction of hours) and days
employees worked regular hours, worked overtime, took leave, or used
earned compensatory time or credit hours.
The timekeepers for five
offices said there was limited use of compensatory time and credit hours,
and the hours were tracked informally rather than recorded in the payroll
system. The timekeeper for one office said the data was recorded in the
payroll system. The timekeeper for three offices said compensatory time
and credit hours were not used.
Recommendations
5. We recommend that the
Personnel Director remind all timekeepers that they are to maintain a
current record of work schedules, and obtain assurances that such records
have been developed.
6. We recommend that the
Personnel Director notify all timekeepers to destroy old versions of the
SF-71, remind them to obtain a leave slip for each absence, and verify
compliance in 60 to 90 days.
7. We recommend that the
Personnel Director remind all supervisors and timekeepers that
compensatory time and credit hours must be recorded in the payroll system.
Management Response
The Director of Personnel
disagreed with recommendation number 6. She proposed that, in the interest
of paper conservation and cost saving measures, that the Agency continue
to use available supplies of the old version of the SF-71 and record leave
used under the Family Medical and Leave Act in the remarks section.
We accepted the proposal
as reaching management agreement. The Procurement and Facilities Branch
distributed the last of the prior SF-71s in December 1999, and minimal
time should be required to deplete office supplies.
REVIEW AND
APPROVAL OF T&A REPORTS
Title 6 states that review
and approval of T&A reports should be made by the official, normally
the immediate supervisor, most knowledgeable of the time worked and
absence of the employee. The APPM states that non-supervisory personnel
may not be authorized to approve or certify T&A reports. NFC guidance
requires supervisors to sign hard copy T&A reports, and employees and
timekeepers to initial reports to verify that leave charged, time worked,
and non-pay status recorded are correct.
Report Preparation
Agency policy has required
that employees, timekeepers, and supervisors initial hard copy T&A
reports since at least March 1992 when APC 92-4 was issued. In a September
1997 report on the Financial Audit of Fiscal Year 1996 Appropriation, the
Office of Inspector General informed the Agency that timekeepers,
employees, and supervisors frequently did not initial T&A reports. We
recommended that the Division of Administration reissue the policy to
emphasize this requirement. Accordingly, the Agency issued APC-98-01,
Transcript of Leave Balances, in October 1997 that reaffirmed Agency
policy requiring employees, timekeepers, and supervisors to initial hard
copy T&A reports.
None of the offices in our
review properly prepared T&A reports.
In one office,
T&A reports were not signed by a supervisor or initialed by the
employees.
In six offices,
timekeepers, alternates or a special assistant signed T&A
reports as a supervisor. The timekeepers, alternates and the special
assistant were all non-supervisory personnel specifically prohibited
from approving T&A reports.
In one office,
T&A reports were approved by a second level supervisor who could
not observe the employees and did not use other means providing
reasonable assurance to verify attendance.
In one office, the
T&A reports for the head of the office were not signed by a
supervisor.
In one office,
T&A reports were signed by the office director, but the
director's T&A report was approved by a subordinate management
official.
T&A reports were not
initialed by the timekeeper, employee, and supervisor in many instances.
In our statistically valid random sample of 78 T&A reports, six
related to the office identified above that had no certification. Of the
remaining 72 T&A reports, 17 were not initialed by the employee, 10
were not initialed by the timekeeper, and 15 were not signed by a
supervisor or timekeeper signing as a supervisor.
Self-Approval
Title 6 provides that,
generally, employees may not approve their own T&A data. The head of
an agency, however, may authorize particular individuals to approve their
own T&A data when it is not feasible to have the T&A data approved
by a supervisor. These exceptions include (1) employees working alone at a
remote site for long periods and (2) employees based at the same duty
station as their supervisors or timekeepers but frequently away from the
same general location. The APPM states that an employee may not approve
his/her own T&A report.
One senior level official
approved his own leave even though his office is in the same general area
as his supervisor. Therefore, this situation does not meet the exception
criteria identified in Title 6. Subsequent to our review, the Board Member
began to approve this employee's leave.
We noted this one
exception because self-approval will be of potential significance once
supervisors begin to approve T&A records as required. Unless otherwise
authorized by the Chairman, the Board Members will have to approve the
T&A records for one or more staff, and the Chairman will also have to
approve the T&A records for the heads of the non-Board offices.
Recommendations
8. We recommend that the
Personnel Director instruct all timekeepers to ensure T&A records are
properly initialed and approved, and verify compliance in 60 to 90 days.
9. We recommend that the
Personnel Director consult with Board Members to establish which
supervisors should be authorized self-approval, and complete necessary
documentation. If the Agency is going to allow self-approval of T&A
reports, Agency policy should be revised to reflect the policy change.
ADVANCE
SICK LEAVE
Agency policy requires
that the employee should make application for an advance of sick leave to
the supervisor who normally approves his/her leave on a SF-71 which
contains a medical certificate or practitioners certification as to the
seriousness of his/her injury or illness. Branch chiefs, or equivalent,
regional directors, officers-in-charge, or designated representative, will
approve the leave slip and submit a memo to the division head or
authorizing official who will approve or disapprove the request.
We identified 23 employees
with advance sick leave balances. We selected a judgmental sample of 11
employees from six different offices who had balances over an extended
period of time. We determined whether documentary evidence was maintained
and approval was granted in conformance with Agency procedures.
We found that approval was
not documented and required documentary evidence supporting advance sick
leave was not maintained.
For 10 of 11
employees, advance sick leave was not approved by the branch chief
or equivalent, nor was a memorandum submitted to the to the division
head for approval.
SF-71s were not
submitted or approved for 4 of 11 employees.
Medical
notes/certificates were not obtained for 5 of 11 employees.
One employee in our sample
was advanced leave under the Family and Medical Leave Act which authorizes
leave, primarily for births, adoptions, and serious health conditions.
Supervisors must approve such requests for leave subject to the
provision of required documentation, which was provided in this instance.
We did not determine the
amount of sick leave requested One employee in our sample was advanced
leave which was provided in this instance. for "family friendly"
purposes, such as a child's minor illness, medical appointments, or
funerals, which can be indicated on the current SF-71. "Family
friendly" leave is subject to supervisory approval in accordance with
Agency guidance including requirements for documentation.
Recommendation
10. We recommend that the
Personnel Director notify timekeepers that sick leave is not to be
advanced unless properly approved and the required documentation is
provided.
RELIANCE ON INTERNAL CONTROLS
Title 6 states that as
T&A systems move away from traditional methods of recording and
reporting employee work and leave time, it is important to implement and
maintain a well defined system that provides management continuous
confidence that controls are working as designed. This can be done through
various methods, including a clear policy statement and a system for
review and testing.
One method of internal
control is a well-defined organizational structure and flow of data, with
clearly written policies and procedures setting forth the responsibilities
of employees, timekeepers, and supervisors regarding recording, examining
and approving transactions. The APPM establishing Agency policy was
reasonably current, set forth the organizational structure and flow of
T&A data, and was fairly clearly written. The responsibilities of
employees, timekeepers, and supervisors regarding recording, examining and
approving transactions were set forth throughout the chapter as
appropriate.
Another internal control
is review and testing of all aspects of the T&A system processing
procedures and controls in sufficient scope, depth, and frequency to
provide reasonable assurance that key procedures and controls are working
and effective and that employee integrity is maintained. The APPM provides
for such review and testing, but these tasks were not performed.
The Personnel Director is
responsible for regular review and appropriate recommendations for
correction or modification of policy and procedures in order to maintain
full and complete implementation of Agency policy, Government regulations,
rulings, and statutes. The Director also develops and recommends Agency
policy and procedures and any necessary revisions thereto concerning the
proper and accurate recording of employee attendance and leave earnings.
The Personnel Branch did
not conduct reviews and testing that provided reasonable assurances that
key procedures and controls were working and effective and that the Agency
was in conformance with Agency policy and Government regulations.
Recommendation
11. We recommend that the
Personnel Director develop a plan for conducting regular reviews as set
forth in Agency policy.
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations
Board
Division of Administration
Memorandum
TO: Jane E. Altenhofen Inspector General
FROM: Sharon B. Seymour Director of
Personnel
SUBJECT: Draft Report "Evaluation of
Time and Attendance Practices"
DATE: February 15, 2000
Please find listed below my comments in
response to your findings in reference to the abovestated subject. In
accordance with your instructions, I have indicated either agreement
and/or disagreement to each specific recommendation and, as appropriate,
provided accompanying explanation(s).
Recommendations:
1. We recommend that the Personnel
Director identify which offices want to re-delegate authority to
subordinate supervisory employees and obtain written delegations of
authority for them, and obtain written designations of timekeepers and
alternates.
Agree. I will issue, in accordance
with APPM-PER-l0, a memo Agency-wide to operating officials requiring
that written delegations and/or redelegations of authority be
submitted to the Payroll/Personnel Systems Unit before such action can
be recognized or accepted. In addition, I will also request written
designations of timekeepers and alternates. Target date for completion
is April 30, 2000.
2. We recommend that the Personnel
Director coordinate changing the passwords for all timekeepers and
alternates, and remind timekeepers and alternates of the need to
safeguard their passwords.
Agree. We will remind all Agency
timekeepers, alternates and security officers of proper procedures.
Target date for completion is April 30, 2000.
3. We recommend that the Personnel
Director instruct timekeepers and alternates to enter the two position
number that identifies the individual timekeepers recording T&A
data.
Agree. This will be completed in
conjunction with recommendation two(2). Target date for completion is
April 30, 2000.
4. We recommend that the Personnel Director assist
the Board Members in developing techniques that provide reasonable
assurances that supervisors and timekeepers are aware of employee
attendance. If observation is chosen as the applicable technique,
timekeepers and supervisors should be provided guidance on what is
required.
Agree. We plan on issuing a memorandum
outlining various methods for providing reasonable assurance of
employee attendance and advising supervisors of their responsibility
regarding employee time and attendance. Except for those employees who
are on alternative work schedules and are required to sign in and out,
the most appropriate method appears to be through observation. In
support thereof, we are recommending that all employees submit Form
SF-71 for all leave usage; and remind employees of Agency policy that
a hard copy of T&A reports must be signed by timekeeper, employee
and supervisor/manager. Target date for completion is April 30, 2000.
5. We recommend that the Personnel
Director remind all timekeepers that they are to maintain a current
record of work schedules, and obtain assurances that such records have
been developed.
Agree. This will be communicated
through Agency-wide correspondence. Target date for completion is
April 30, 2000.
6. We recommend that the Personnel
Director notify all timekeepers to destroy old versions of the SF-71,
remind them to obtain a leave slip for each absence, and verify
compliance in 60 to 90 days.
Disagree. In the interest of paper
conservation and cost saving measures, we should not make it mandatory
as long as we have copies of the old version available for use. As to
the recording of leave used under the Family and Medical Leave Act,
such leave can be and is being recorded in the remarks section of the
old version. We will recommend use of the SF-71, either the old or
revised form, for all leave requests.
7. We recommend that the Personnel
Director remind all supervisors and timekeepers that compensatory time
and credit hours must be recorded in the payroll system.
Agree. This information will be
communicated Agency-wide. Target date for completion is April 30,
2000.
8. We recommend that the Personnel Director
instruct all timekeepers to ensure T&A records are properly
initialed and approved, and verify compliance in 60 to 90 days.
Agree. We will reissue the Agency
policy, (APC-98-01) that reaffirmed the Agency policy requiring
employees, timekeepers and supervisors to initial hard copy T&A
reports. Target date for completion is March 30, 2000.
9. We recommend that the Personnel
Director consult with Board Members to establish which supervisors
should be authorized self-approval, and complete necessary
documentation. If the Agency is going to allow self approval of
T&A reports, Agency policy should be revised to reflect the policy
change.
Agree. We will communicate and consult
with the Board Members and other Agency managers to ascertain such
information and to provide guidance accordingly. Target date for
completion is April 30, 2000.
10. We recommend that the Personnel Director notify
timekeepers that sick leave is not to be advanced unless properly
approved and the required documentation is provided.
Agree. This information will be
communicated via memorandum in accordance with APPM-PER-10 governing
advance of sick leave. Target date for completion is April 30, 2000.
11. We recommend that the Personnel
Director develop a plan for conducting regular reviews as set forth in
Agency policy.
Agree. In accordance with Agency
policy to conduct regular reviews and to make appropriate
recommendations therewith, we plan on making timekeeping part of
annual reviews conducted by the Program Development and Personnel
Management Evaluation Section. Target date for the initial review is
no later than April 30, 200l.
Some of the target dates and/or
recommendations may be impacted as a result of our obligation to consult
and negotiate, as appropriate, with the unions regarding changing employee
working conditions. Therefore, some of the dates may have to be adjusted
and recommendations may have to be modified. We plan on issuing, annually,
a memo to all Agency employees providing guidance regarding the Agencys
T&A policy. In addition, we will reactivate the issuance of a
timekeeper bulletin to be distributed semi-annually. Also, as required, we
will issue appropriate APCs and ABs.
If you have any questions or would like to
discuss my response to your draft report, you may contact me on 273-3801.